Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICAID SERVICES PROVIDED
 IN AN ADULT DAY HEALTH
         SETTING




                   Daniel R. Levinson
                    Inspector General

                      July 2011
                    OEI-09-07-00500
I   N T
       E RX OE DC UU C T T I I V O E N       S U M M A R Y


                       OBJECTIVES
                       1. To describe the types of services reimbursed by Medicaid adult day
                          health programs in the 12 States that provide nursing- and
                          therapy-focused adult day health services through a State plan
                          benefit.
                       2. To determine whether nursing and therapy services are provided by
                          staff who are qualified and/or supervised in accordance with State
                          licensing requirements.
                       3. To determine whether beneficiary records contain required
                          documentation.


                       BACKGROUND
                       Adult day health centers are organized outpatient programs that
                       provide health, therapeutic, and social services and activities to
                       program participants. Federal and State reviews of Medicaid adult day
                       health services have identified vulnerabilities with reimbursement
                       systems and questionable billings. The Centers for Medicare &
                       Medicaid Services (CMS) and State Medicaid programs do not receive
                       information about the individual services provided to beneficiaries in
                       the 12 States included in our review because reimbursement is based on
                       bundled payment rates.
                       Within broad Federal Medicaid requirements, individual States
                       establish the specific requirements that must be met for Medicaid
                       reimbursement of adult day health services. In general, adult day
                       health services need to be (1) ordered or requested by a physician or
                       other medical practitioner; (2) provided to eligible beneficiaries, as
                       determined by a patient assessment; (3) included in or consistent with a
                       plan of care; (4) rendered by staff whose qualifications and/or
                       supervision meet State licensing requirements; and (5) supported by
                       appropriate documentation.
                       Using medical reviewers, we reviewed beneficiary and other facility
                       records associated with a random sample of 300 adult day health service
                       days from the last 6 months of 2007. We focused on the 12 States that,
                       as of December 31, 2007, provided nursing- and therapy-focused adult
                       day health services through a State plan benefit to primarily elderly or
                       disabled individuals.



    OEI-09-07-00500    MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   i
E   X   E C     U T   I    V   E      S    U M     M      A       R Y



                          FINDINGS
                          Beneficiaries received at least one health service on 60 percent of
                          service days. Nursing services, documented on 59 percent of service
                          days, were the most commonly documented services. Beneficiaries
                          received therapy, primarily maintenance care, on approximately
                          32 percent of service days. On 40 percent of service days, beneficiaries
                          received no documented health services, including 34 percent of service
                          days on which meals and/or snacks were the only documented services.
                          Most States do not require that beneficiaries receive a health service
                          each day in an adult day health setting. Section 1905(a) of the Social
                          Security Act does not include adult day health services as a specific
                          coverable State plan service and, therefore, no specific Federal
                          requirement for health services exists.
                          Approximately 43 percent of therapy services were provided by staff
                          who lacked required supervision. Of the documented physical
                          therapy services, 54 percent did not have any documentation indicating
                          that the appropriately qualified staff were available to supervise the
                          service where required under State law and regulation. Approximately
                          32 percent of the documented occupational therapy services had no
                          documentation that appropriately qualified staff were available to
                          supervise the service in accordance with State law and regulation.
                          Documentation included timely assessments, but in some cases it
                          lacked appropriate physician orders or was inconsistent with plans
                          of care. Records for approximately 90 percent of service days included
                          timely assessments. Records for approximately 21 percent of service
                          days did not include a physician order or request signed before the start
                          of treatment. Approximately 22 percent of nursing and therapy services
                          received on service days were not included in the beneficiaries’ most
                          recent plans of care and, therefore, may be inconsistent with their
                          treatment goals.


                          RECOMMENDATIONS
                          On many service days, beneficiaries’ only documented services were
                          meals and/or snacks. Many also received therapy services from staff
                          who were not supervised in accordance with State requirements. Our
                          findings indicate the need for (1) explicit requirements regarding the
                          provision of health services in Medicaid adult day health centers and
                          (2) enforcement of current therapy supervision requirements.
                          Therefore, we recommend that CMS:

    OEI-09-07-00500       MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   ii
E   X   E C     U T   I    V   E      S    U M     M      A       R Y


                          Specify what services are required for Medicaid reimbursement of
                          adult day health services.
                          Direct States to enforce supervision requirements for staff who
                          provide therapy services in Medicaid adult day health centers.
                          Take appropriate action to address the centers that did not respond
                          to repeated data requests.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          In its written comments on our draft report, CMS concurred with all of
                          our recommendations. In response to our first recommendation, CMS
                          stated that it will educate States on the proper authorities by which
                          services in an adult day health setting may be covered under Medicaid.
                          In response to our second recommendation, CMS stated that it will
                          ensure that each State plan includes assurances that services are
                          provided in accordance with Federal regulations. In response to our
                          third recommendation, CMS stated that it will follow up with the
                          appropriate States to discuss whether they have policies and procedures
                          in place that require Medicaid providers to allow State Medicaid
                          agencies access to data and records that can be used to support
                          appropriate reimbursement for services.




    OEI-09-07-00500       MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   iii
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    Beneficiaries received at least one health service on
                    60 percent of service days . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    Approximately 43 percent of therapy services were provided
                    by staff who lacked required supervision . . . . . . . . . . . . . . . . . . . . 19

                    Documentation included timely assessments, but in some
                    cases it lacked appropriate physician orders or was inconsistent
                    with plans of care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                    Agency Comments and Office of Inspector General Response. . . . 23


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                    A: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To describe the types of services reimbursed by Medicaid adult day
                     health programs in the 12 States that provide nursing- and
                     therapy-focused adult day health services through a State plan
                     benefit.
                  2. To determine whether nursing and therapy services are provided by
                     staff who are qualified and/or supervised in accordance with State
                     licensing requirements.
                  3. To determine whether beneficiary records contain required
                     documentation.


                  BACKGROUND
                  Federal and State reviews of Medicaid adult day health services
                  identified problems with reimbursement systems and questionable
                  billings.1 Because reimbursement is based on bundled payment rates,
                  the Centers for Medicare & Medicaid Services (CMS) and State
                  Medicaid programs do not receive information about the individual
                  services actually provided to beneficiaries in the12 States that provide
                  nursing- and therapy-focused adult day health services through a State
                  plan benefit. Furthermore, some adult day health centers billed
                  Medicaid for deceased or ineligible beneficiaries or used questionable
                  referrals for care. 2
                  Medicaid Adult Day Health Services
                  Adult day health centers are organized outpatient programs that
                  provide health, therapeutic, and social services and activities to
                  program participants. The services and eligibility requirements vary


                    1 See California Department of Health Services,Medi-Cal Payment Error Study, Fee for
                  Service and Dental Programs, 2005, p. 15. Accessed at
                  http://www.dhcs.ca.gov/formsandpubs/publications/Documents/ANI_MPES%202005%20Rep
                  ort.pdf on March 16, 2010. New Jersey State Legislature, Office of Legislative Services,
                  Office of the State Auditor, Department of Health and Senior Services, Division of
                  Consumer Support, Medical Assistance to the Aged, Medical Day Care Program
                  (A-02-02-01026), March 24, 2003. Office of Inspector General (OIG), Ryan White Title I
                  Funds Claimed by an Adult Day Health Care Contractor of the San Francisco Eligible
                  Metropolitan Area for the Fiscal Year Ended February 28, 2002 (A-09-03-01018),
                  February 9, 2005.
                    2 “Sixteen adult day centers accused of rampant fraud,”New Jersey Star-Ledger,
                  August 25, 2003. Reporting on a 2002 investigation by the New Jersey Department of
                  Health Services’ Program Integrity Unit and the State Attorney General’s Office.



OEI-09-07-00500   MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G              1
I   N T    R O        D   U     C T     I   O   N


                              across States, but most States cover a variety of skilled nursing; health
                              monitoring; rehabilitation services, such as physical and occupational
                              therapy and speech-language pathology; and/or mental health
                              counseling and support. Adult day health centers also generally provide
                              meals, assistance with activities of daily living, social and recreational
                              activities, and transportation to and from the center.
                              Eligibility for adult day health services generally is determined by an
                              individual’s assessed need for one or more offered services. A program
                              participant may be eligible to receive adult day health services for a
                              limited period to address a specific rehabilitative goal or for many years
                              to address a chronic health issue, depending on the participant’s
                              assessed needs and the goals established in his or her plan of care. 3 The
                              average age of adult day health service participants is 75; most are
                              disabled. 4
                              State Options for Medicaid Coverage of Adult Day Health Services
                              State Medicaid programs have options for covering adult day health
                              services, including section 1915(c) home- and community-based services
                              waivers, optional State plan benefits, and home- and community-based
                              State plan benefits.
                              Most States provide adult day health services through one or more
                              section 1915(c) home- and community-based services waiver(s). Section
                              1915(c) waivers allow States to target services to the population thought
                              most likely to benefit. To be eligible for 1915(c) waiver services,
                              beneficiaries must require an institutional level of care. 5
                              States, including the 12 in our review, also may cover adult day health
                              services under an optional benefit through their Medicaid State plan.6
                              Section 1905(a) of the Social Security Act does not include adult day


                                3 Plans of care, typically developed by a nurse, therapist, or interdisciplinary team of
                              health care providers, identify problem areas for beneficiaries, list measurable goals, and
                              describe treatments to be provided by center staff to enable beneficiaries to achieve these
                              goals.
                                4 J.A Lucas, N.S Rosato, J.A. Lee, and S. Howell-White, Adult Day Health Services: A

                              Review of the Literature, Rutgers Center for State Health Policy, August 2002. Accessed at
                              http://www.cshp.rutgers.edu/PDF/AdultDaycareLitRev.pdf on June 15 2010.
                                5 Under this requirement, a beneficiary must, in the absence of the specified home- and
                              community-based service, require the level of care provided in a hospital, nursing facility, or
                              intermediate care facility for the mentally retarded. Social Security Act, § 1915(c)(1).
                                6 States outline their Medicaid programs in their State plans. The State plan, once

                              approved by CMS, specifies eligibility requirements, the level and type of benefits, payment
                              rates and methodology, and the administrative structure for the State’s Medicaid program.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                   2
I   N T    R O        D   U     C T     I   O   N


                              health services as a specific coverable State plan service, but State
                              Medicaid programs may pay for these services under an appropriate
                              State plan benefit, such as personal care services, physical therapy, or
                              nursing services. Generally, a benefit provided through the Medicaid
                              State plan is available to all categorically eligible Medicaid beneficiaries
                              who meet the conditions of coverage for the benefit. 7
                              Provisions in the Deficit Reduction Act of 2005 expanded State options
                              for covering adult day health benefits in State plans. Pursuant to
                              section 1915(i) of the Social Security Act, 8 States can elect to provide
                              home- and community-based State plan services (including adult day
                              health services) to elderly and disabled beneficiaries. To cover services
                              under this authority, States must meet conditions not required for other
                              State plan benefits. 9 As with other State plan benefits, beneficiaries are
                              not required to meet the established institutional level of care to be
                              eligible for section 1915(i) services although, unlike with other State
                              plan benefits, beneficiaries’ income must not exceed 150 percent of the
                              Federal poverty level.
                              As of December 31, 2007, the last date of the 6-month period covered by
                              our review, 47 State Medicaid programs provided some form of adult
                              day health services to eligible beneficiaries, in most cases through a
                              1915(c) home- and community-based services waiver or through an
                              optional State plan benefit. 10
                              Adult Day Health Requirements
                              Within broad Federal Medicaid requirements, individual States
                              establish the specific requirements that must be met for Medicaid
                              reimbursement of adult day health State plan benefits. Each State plan

                                7 42 CFR § 440.240.
                                8 42 U.S.C. § 1396n(i).
                                9 States must meet the following conditions: (1) establish needs-based criteria for

                              determining an individual’s eligibility under the State plan for medical assistance for such
                              home- and community-based services and, if the individual is eligible for such services, the
                              specific home- and community-based services that the individual will receive; (2) establish
                              needs-based criteria for institutionalized care that are more stringent than needs-based
                              criteria for section 1915(i) home- and community-based services; (3) project the number of
                              individuals to be provided home- and community-based services; and (4) use independent
                              assessments to determine the individual’s eligibility for the services.
                                 10 Department of Health & Human Services, Assistant Secretary for Planning and

                              Evaluation; K. Siebenaler, J. O’Keeffe, C. O’Keeffe, D. Brown, and B. Koetse, Regulatory
                              Review of Adult Day Services: Final Report, August 2005, pp. 2–24. Accessed at
                              http://aspe.hhs.gov/daltcp/reports/adultday.pdf on March 16, 2010; OIG review of State
                              plans and Medicaid waivers.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                    3
I   N T    R O        D   U     C T     I   O   N


                              must specify the “amount, duration, and scope for each service that it
                              provides for” and ensure that “each service [is] sufficient in amount,
                              duration, and scope to reasonably achieve its purpose.” 11 Of the
                              50 States and the District of Columbia, 12 States provided nursing- and
                              therapy-focused adult day health services through a State plan benefit
                              as of December 31, 2007. 12, 13
                              Most State regulations include requirements related to patient
                              eligibility, coverage of services, physician orders, plans of care,
                              documentation of services, and provider qualifications. All States
                              included in our review required that Medicaid adult day health services
                              be:
                              (1) ordered or requested by a physician or other medical practitioner;
                              (2) provided to eligible beneficiaries, as determined by a patient
                                  assessment;
                              (3) included in or consistent with a plan of care;
                              (4) rendered by staff whose qualifications and/or supervision meet State
                                  licensing requirements; and
                              (5) supported by appropriate documentation, such as progress notes,
                                  flowcharts, and treatment logs.
                              State requirements also outline the authorized services and attendance
                              requirements for adult day health service participants. Requirements
                              in the 12 States included in our review outline which services are
                              authorized within adult day health programs, but generally do not
                              specify, with the exception of transportation services and meals, the
                              frequency and duration of particular services that must be provided to
                              participants. States also determine the minimum amount of time a
                              beneficiary must be present for the center to bill for Medicaid
                              reimbursement for full or half days. Depending on the State,



                                11 42 CFR § 440.230.
                                12 These States were California, Maine, Maryland, Massachusetts, Missouri, New

                              Hampshire, New Jersey, New York, Nevada, Texas, Washington, and Vermont. Maryland
                              eliminated its State plan adult day health benefit after December 31, 2007, and began
                              covering adult day health services through a 1915(c) waiver.
                                13 The remaining 39 States and the District of Columbia (1) provided an adult day health
                              service benefit through at least one 1915(c) or 1115 waiver, but not through their State
                              plan; (2) provided a State plan adult day health service benefit that was not nursing and
                              therapy focused; or (3) did not provide a Medicaid adult day health benefit.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                 4
I   N T    R O        D   U     C T     I   O   N


                              beneficiaries typically must be present for 4 to 8 hours for the center to
                              receive Medicaid reimbursement for a full day of service.
                              Proposed Requirements
                              In August 2007, CMS promulgated a Notice of Proposed Rulemaking
                              concerning coverage for Medicaid rehabilitative services. 14 The
                              proposed rule specified the types of services that would be eligible for
                              Medicaid reimbursement under the rehabilitative benefit. In particular,
                              it indicated that:
                                 rehabilitative services would not include recreational and
                                 social activities that are not specifically focused on the
                                 improvement of a physical or mental health impairment
                                 and achievement of a specific rehabilitative goal specified in
                                 the rehabilitation plan, and provided by a Medicaid qualified
                                 provider recognized under State law.15
                              The proposed rule would have required States that include adult day
                              health (among other services) as a rehabilitative service benefit in their
                              State plan, including nine States in our review, to alter the scope and/or
                              documentation requirements of these services.
                              Concerned that beneficiaries would lose access to rehabilitative services,
                              Congress enacted section 5003(d) of the American Recovery and
                              Reinvestment Act of 2009, which states that “it is the sense of Congress
                              that the Secretary of Health & Human Services should not promulgate
                              as final any of the following proposed Medicaid regulations …,”
                              including the proposed rehabilitative services regulation published on
                              August 13, 2007.16 CMS withdrew the proposed rehabilitative services
                              rule in November 2009. As a result, although States have established
                              requirements for services (such as adult day health) that are covered
                              under the rehabilitative benefit, there are no explicit Federal
                              requirements concerning the types of services that are eligible for
                              Medicaid reimbursement under the rehabilitative benefit.
                              Reimbursement Methodologies for Adult Day Health Services
                              Although specific reimbursement methodologies for adult day health
                              services vary, the 12 States that provided a nursing- and
                              therapy-focused adult day health benefit through their State plans
                              reimbursed providers based on bundled payment rates. A bundled


                                14 72 Fed. Reg. 45201 (Aug. 13, 2007).
                                15 72 Fed. Reg. 45201, 45206 (Aug. 13, 2007).
                                16 P.L. 111-5 (Feb. 17, 2009).




    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   5
I   N T    R O        D   U     C T     I   O   N


                              payment covers all services provided to a beneficiary within a specified
                              period. The actual bundled rates and means of calculating the rates
                              varied across the States. For example, in 2007, daily adult day health
                              rates were $63.16 for a full day in Missouri and $76.88 in California and
                              ranged from approximately $70 to more than $200 in New York.17 In
                              Texas, the bundled reimbursement rate varied based on the
                              beneficiaries’ level of need and the number of hours spent at the center.
                              During our period of review, Medicaid claims for adult day health
                              services, even when based on daily rates, often were submitted for
                              reimbursement on a weekly, monthly, or other less frequent basis.
                              Related Reviews
                              Previous reviews in two States included in this latest review have
                              indicated that adult day health services may be vulnerable to improper
                              billing. The California Department of Health Services found that
                              among all Medicaid providers, adult day health service providers had
                              the “highest percentage of claims completely in error and the greatest
                              number of errors” related to the provision of medically unnecessary care
                              in 2005. 18
                              In addition, in 2003, the New Jersey Office of the State Auditor, in
                              partnership with the Department of Health & Human Services’ OIG,
                              released a report on the administration of New Jersey’s Medical Day
                              Care program.19 The report indicated that reviewers could not
                              determine the reasonableness of the payments because the program
                              regulations did not define adequately the population to be served. The
                              study also identified a large number of ineligible clients in some
                              facilities and incomplete attendance records. The report concluded that
                              the Medical Day Care program had evolved from an alternative to
                              nursing home care to a program that provided services to any
                              beneficiary enrolled in Medicaid because the State requirements did not



                                17 In New York, maximum daily adult day health rates are based on the sponsoring
                              skilled nursing facilities’ established facility rate.
                                18 California Department of Health Services, Medi-Cal Payment Error Study, Fee for

                              Service and Dental Programs, 2005, p. 15. Accessed at
                              http://www.dhcs.ca.gov/formsandpubs/publications/Documents/ANI_MPES%202005%20Rep
                              ort.pdf on March 16, 2010.
                                19 New Jersey State Legislature, Office of Legislative Services, Office of the State
                              Auditor, Department of Health and Senior Services, Division of Consumer Support,
                              Medical Assistance to the Aged, Medical Day Care Program (A-02-02-01026), March 24,
                              2003.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G              6
I   N T    R O        D   U     C T     I   O    N


                              explicitly define the types of medical conditions that warranted Medical
                              Day Care services.
                              A 2002 investigation by the New Jersey Department of Health Services’
                              Program Integrity Unit and the Division of Criminal Justice in the
                              State Attorney General’s Office identified at least $600,000 in
                              questionable billings by adult day health service centers. 20 These
                              centers billed Medicaid for deceased patients, patients who did not
                              require services, and patients who attended centers for only a fraction of
                              the minimum time required by the State. Some of these centers did not
                              have a nurse on duty, as required, or encouraged patients to attend with
                              promises of toaster ovens, fruit, or trips to Atlantic City.


                              METHODOLOGY
                              Scope
                              We reviewed beneficiary and facility records associated with a random
                              sample of adult day health service days from the last 6 months of 2007.
                              We focused on the 12 States that, as of December 31, 2007, provided
                              nursing- and therapy-focused adult day health services through a State
                              plan benefit to primarily elderly or disabled individuals. 21
                              We selected the 12 States to ensure consistency in the types of services
                              and populations included in our review. We focused on States that
                              structured their adult day health benefit to provide rehabilitative and
                              other health services to a primarily elderly or disabled population.
                              Including States that offer different types of adult day health benefits,
                              such as through 1915(c) waivers, would have made a multi-State review
                              impractical. States have a great deal of flexibility in designing 1915(c)
                              waiver benefits, and as a result, waiver services and requirements
                              generally vary across States. Similarly, the services provided and
                              populations served through adult day health benefits focused on mental
                              health rehabilitation differ significantly from nursing- and therapy-
                              focused adult day health services provided through either State plans or
                              waivers.


                                20 “Sixteen adult day centers accused of rampant fraud,”                    New Jersey Star-Ledger,
                              August 25, 2003.
                                21 These States were California, Maine, Maryland, Massachusetts, Missouri, New
                              Hampshire, New Jersey, New York, Nevada, Texas, Washington, and Vermont. Maryland
                              eliminated its State plan adult day health benefit after December 31, 2007, and began
                              covering adult day health services through a 1915(c) waiver.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                             7
I   N T    R O        D   U     C T     I   O   N


                              Sample Selection
                              We requested that the 12 States provide all adult day health service
                              claims with dates of service in the last 6 months of 2007 maintained in
                              their Medicaid Management Information Systems (MMIS). We
                              requested the following information about adult day health claims: 22
                              • the associated service date(s);

                              • the beneficiary’s name, date of birth, and Medicaid identification
                                number; and
                              • the Medicaid provider name, provider number, and mailing address.

                              Using this information, we created a database of 8,522,935 service days,
                              each of which represented a unique combination of a service day and a
                              beneficiary Medicaid identification number. From this database, we
                              selected a simple random sample of 400 service days. Because the
                              MMIS data in some States did not contain a separate claim for each
                              service day, in some cases we estimated likely service days based on the
                              MMIS claim dates and reimbursement information. As a result, in
                              these cases, sampled service days may not reflect days on which a
                              beneficiary actually was present in an adult day health center. For
                              example, an adult day health claim could have a claim date from
                              September 3 to September 7, 2007. We would have sampled 1 day
                              within this time period, for example, September 4. It is possible that
                              the beneficiary was not present in the center on September 4, but
                              attended only on September 3, 5, and 7.
                              Record Collection
                              We requested beneficiary and facility records associated with sampled
                              service days from each center that provided the adult day health
                              services. We forwarded the information for the service days to our
                              medical review contractor (contractor), which sent letters to each of
                              the centers that provided the adult day health services. The letter
                              requested (1) all physician orders, plans of care, and assessments
                              maintained for the beneficiary; (2) beneficiary records documenting
                              the beneficiary’s first month of attendance at the facility following
                              initial enrollment; (3) beneficiary records documenting services,


                                22 We chose the last 6 months of 2007 because we wanted all dates of service to be

                              relatively close in time to our data. We did not expect that there would be differences in
                              documentation at the adult day health centers in the last 6 months of 2007 when compared
                              with the first 6 months.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G              8
I   N T    R O        D   U     C T     I   O   N


                              progress notes, and flowcharts for the 6 months before the sampled
                              service date; 23 and (4) facility records, such as treatment, equipment,
                              and transportation logs; beneficiary and staff sign-in sheets; and staff
                              schedules for the sampled service date.
                              We limited our review to service days for which patient or other
                              facility records included some documentation that the beneficiary was
                              at the facility. Because our review was based solely on information
                              available in patient and other facility records, we wanted to ensure
                              that documentation would be available to complete an accurate
                              review of service days.
                              Of the 400 service days, we removed 57 because we deemed them
                              ineligible (not part of our intended target population) for the following
                              reasons:
                              • the provider was under OIG investigation (1 service day),

                              • available information indicated that the beneficiary was not in the
                                center on the sampled service day (53 service days), 24 and
                              • the center did not provide primarily nursing and therapy services to
                                an elderly and/or disabled population (3 service days).
                              The remaining 343 service days constituted our eligible sample size
                              (sample units deemed part of the intended study population). We
                              received responses for 300 of these 343, a response rate of 88 percent,
                              and the contractor reviewed records associated with all 300 service
                              days. The contractor did not complete reviews for the other
                              43 service days for the following reasons:
                              • the center did not respond to repeated requests for records
                                (37 service days),25




                                23 If the beneficiary attended the center for fewer than 6 months, we asked that the
                              center provide all records documenting services, progress notes, and flowcharts before the
                              sampled service date for that beneficiary.
                                24 In these cases, our service day did not reflect a day on which the beneficiary actually

                              received an adult day health service, whether because the beneficiary was absent or the
                              sampled service day fell on a Saturday or Sunday and the center was closed.
                                 25 With no contact from the center, we could not confirm that the beneficiary was present

                              on the sampled service day. As a result, we assumed these service days were part of our
                              intended study population and treated them as nonrespondents missing completely at
                              random in our analysis. This means our results are based only on the 300 responding
                              service days.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                    9
I   N T    R O        D   U     C T     I   O   N


                              • incomplete records did not allow medical reviewers to conduct their
                                reviews (5 service days), or
                              • the center reported that the beneficiary listed on the claim never
                                attended the facility (1 service day).
                              Medical Record Review
                              The medical record review was completed in two parts. For the first
                              part, a nurse-screener reviewed records associated with each service day
                              to determine whether the following was included: (1) physician orders
                              or requests, (2) initial assessments, and (3) plans of care.
                              The nurse-screener also identified all individual services received on
                              each service day, categorized the individual services into one of
                              13 service types or into an “other” category, 26 and indicated whether
                              each individual service was included in the beneficiary’s plan of care.
                              The 13 service types were:
                              • nursing,

                              • physical therapy,

                              • occupational therapy,

                              • speech-language pathology,

                              • therapeutic activity,

                              • recreational/social activity,

                              • assistance with activities of daily living (ADL),

                              • dietician/nutritionist education,

                              • meal,

                              • snack,

                              • mental health/psychiatric service,

                              • pharmacy service, and

                              • social work service.


                                26 We instructed the nurse-screener to categorize services as “other” if they did not fall
                              into one of the established service types. The nurse-screener included four
                              psychiatric-related services in the “other” category. For analysis to determine the
                              percentage of health and nonhealth services received on sampled service days, we included
                              these services in the “mental health/psychiatric” service type. The nurse-screener also
                              included four “nonspecific” services in the “other” service type, which we categorized as
                              nonhealth for the analyses on health and nonhealth services.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                    10
I   N T    R O        D   U     C T     I   O   N


                              We instructed the nurse-screener to be as inclusive as possible in
                              categorizing each service as a therapy service or therapeutic activity.
                              The nurse-screener was instructed that, if there was any possibility,
                              as determined by the nurse-screener, that an activity, such as group
                              exercise or gardening, targeted a beneficiary’s functional goals, that
                              service should be categorized as therapy or therapeutic activity, even
                              if the record did not explicitly indicate that the activity targeted the
                              beneficiary’s goals. After completing the first part of the review, the
                              nurse-screener forwarded records to one or more subject matter
                              experts if they contained at least one of the following services:
                              nursing, physical therapy, occupational therapy, or a therapeutic
                              activity. 27, 28
                              For the second part of the review, subject matter experts completed a
                              focused review of nursing and therapy services. Two registered nurses,
                              two physical therapists, and two occupational therapists completed our
                              focused nursing and therapy reviews. The registered nurses determined
                              (1) whether documented nursing services were skilled or nonskilled
                              nursing services 29 and (2) whether the qualifications and/or delegation
                              of staff met State licensing requirements. Physical and occupational
                              therapy reviewers determined whether (1) documented therapy services
                              were rehabilitative/restorative or maintenance services, (2) services
                              were provided one-on-one or in a group, and (3) the qualifications and/or
                              supervision of staff met State licensing requirements.
                              Medical reviewers referred to the State-specific requirements we
                              identified when assessing the appropriateness of staff qualifications.
                              We reviewed State requirements for adult day health services and
                              providers of nursing, physical and occupational therapy, and
                              speech-language pathology services for the 12 States included in our
                              review. In particular, in consultation with the medical review


                                27 Therapeutic activities received further review by a subject matter expert if they were
                              mentioned in the beneficiary’s plan of care or were provided by a physical therapist,
                              occupational therapist, or a therapy assistant or aide.
                                 28 Patient records contained no documented speech-language pathology services on

                              sampled service days. Records with these services on service days also would have been
                              forwarded to subject matter experts for further review.
                               29 Based on CMS’s definition of skilled nursing service in the Medicare Benefit Policy

                              Manual, ch. 7, Home Health Services, section 40.1, Skilled Nursing Care, we defined skilled
                              nursing services as those that must, given the nature of the service or the condition of the
                              patient, be provided by a registered nurse or a licensed practical/vocational nurse. State
                              definitions of skilled nursing care may vary.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                    11
I   N T    R O        D   U     C T     I   O   N


                              contractor, we identified State adult day health requirements for
                              physician orders, initial assessments, plans of care, and staff
                              qualifications, including the appropriate supervision and delegation of
                              services.
                              Analysis
                              The results presented in the findings are based on analysis of the
                              medical review results. The results are projected to all service days
                              during the last 6 months of 2007 in the 12 States that provided
                              nursing- and therapy-focused adult day health services through a
                              State plan benefit to primarily elderly or disabled individuals.
                              Some of the estimates are based on service-level data. Our
                              nurse-screener recorded all services that were documented on the
                              300 service days, accounting for 2,829 services. The service-level
                              results are projected to all documented services on service days in the
                              last 6 months of 2007 in the 12 States.
                              Appendix A lists the confidence intervals for all estimates in this report.
                              We determined the following for sampled service days:
                              • what services were documented;

                              • the extent to which documented therapy services were
                                rehabilitative and documented nursing services were skilled;
                              • the extent to which services were provided in one-on-one or group
                                settings;
                              • the extent to which the qualifications and/or supervision of staff
                                providing services met State licensing requirements; and
                              • the extent to which physician orders, initial assessments, plans of
                                care, and other documentation were maintained in the patient and
                                other facility records associated with sampled service days.
                              To determine the percentage of service days on which beneficiaries
                              received a health or nonhealth service, we categorized all services
                              documented on sampled service days as either health or nonhealth.
                              Health services were defined as those that must be provided directly
                              by, or under supervision or delegation of, a licensed practitioner. We
                              indentified nursing, physical and occupational therapy, speech-
                              language pathology, therapeutic activities, pharmacy,
                              dietician/nutritionist education, and certain “other” services (e.g.,




    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   12
I   N T    R O        D   U     C T     I   O   N


                              psychiatric services) as health services.30 Nonhealth services were
                              defined as recreational and social activities, assistance with ADLs,31
                              meals, snacks, and social work. We categorized the services in this
                              way to distinguish between services serving primarily a health or
                              medical function and those serving primarily a support function.
                              With the exception of meals and snacks, all of these health and
                              nonhealth services could meet the definition of a Medicaid-covered
                              service.
                              Limitations
                              We limited our review to service days for which available
                              documentation indicated that beneficiaries were present in centers.
                              Beyond reviewing available facility documentation, we did not attempt
                              to verify provider statements that a beneficiary was not in a center on
                              the sampled service day. In addition, we were not able to determine the
                              extent to which adult day health centers may have been reimbursed for
                              service days on which beneficiaries were not at centers because State
                              MMIS data included claims that covered more than 1 day of service.
                              CMS has no standard definition or guidance regarding what constitutes
                              either a health or nonhealth service. Therefore, we categorized each of
                              the 13 service types as either a health or a nonhealth service. The
                              results in the first finding reflect this categorization and could vary if
                              the service types were categorized differently.
                              Our results may underestimate the number of nonhealth services and
                              overestimate the number of health services received on service days.
                              We reviewed only those services documented in beneficiaries’ records.
                              Documentation requirements for recreational, social, and other
                              nonhealth services, when they exist, generally are less clear than those
                              for health services. In some cases, particularly for nonhealth services,
                              such as recreational and social activities, beneficiaries may have
                              received services that were not documented in records maintained by
                              adult day health centers. In addition, because we instructed the nurse-


                                 30 In some cases, beneficiaries received services related to ADLs, such as ADL training,
                              education, and monitoring, that medical reviewers categorized as a nursing or therapy
                              service. We classified these ADL-related services as health services because they are
                              intended to provide beneficiaries the information and training needed to achieve
                              rehabilitative goals.
                                31 We classified assistance with ADLs as a nonhealth service because such assistance is

                              intended to enable beneficiaries to perform everyday self-care activities, such as eating,
                              bathing, and dressing.



    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                   13
I   N T    R O        D   U     C T     I   O   N


                              screener to be inclusive when classifying a service as either a therapy
                              service or a therapeutic activity, we may have classified some services
                              with an exclusively social or recreational function as health services.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-09-07-00500           MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   14
    F I N D I N G S

Beneficiaries received at least one health service           On approximately 60 percent
                    on 60 percent of service days            of service days, beneficiaries
                                                             received at least one
                    documented health service. Table 1 highlights the percentage of service
                    days on which beneficiaries received the most common types of services.
                    The total number of documented services on service days ranged from
                    0 to 55. On average, nine health and nonhealth services were
                    documented in beneficiaries’ records each service day. On service days
                    with at least 1 documented health service, the number of health services
                    ranged from 1 to 47, with an average of 11.


                   Table 1: Service Types Documented on at Least 10 Percent of
                   Service Days

                     Service Type 32                              Health/Nonhealth                    Percentage of Service Days (n=300)


                     Nursing                                                     Health                                            59%


                     Meal                                                   Nonhealth                                              45%


                     Snack                                                  Nonhealth                                              35%


                     Occupational therapy                                        Health                                            29%


                     Physical therapy                                            Health                                            29%


                     Assistance with ADLs                               Nonhealth 33                                               27%


                     Social work service                                    Nonhealth                                              19%


                     Recreational/social activities                         Nonhealth                                              18%


                   Source: OIG analysis of adult day health medical review results, 2010.




                       32 No speech-language pathology services were documented on service days.
                       33 Excludes services related to ADLs that medical reviewers categorized as nursing or

                    therapy services.



 OEI-09-07-00500    MEDICAID SERVICES PROVIDED       IN AN   A D U LT D AY H E A LT H S E T T I N G                                   15
F   I   N   D I       N G    S


                            Nursing services were the most commonly documented services
                            Nursing services were documented on approximately 59 percent of
                            service days. Beneficiaries received nursing services on almost all
                            service days with at least one documented health service. The most
                            frequently documented nursing services included vital signs checks
                            (28 percent of service days), pain assessments (22 percent), blood sugar
                            checks (13 percent), medication administration (12 percent), and
                            monitoring of food intake (11 percent).
                            Beneficiaries typically received nursing services in combination with
                            other services. On approximately 49 percent of service days,
                            beneficiaries received nursing care along with at least one other service,
                            such as a meal or assistance with ADLs. On a small number of service
                            days (1 percent), beneficiaries received physical and/or occupational
                            therapy without a nursing service. Beneficiaries received only nursing
                            services on approximately 10 percent of service days.
                            Beneficiaries received both skilled and nonskilled nursing care.
                            Among all nursing services received on service days, approximately
                            48 percent were skilled nursing services (e.g., monitoring the signs and
                            symptoms of an allergy, assessing a beneficiary’s mental status, or
                            assessing medication side effects), whereas 52 percent were nonskilled
                            services (e.g., conducting a pain assessment, checking a beneficiary’s
                            blood sugar level, or monitoring a beneficiary’s food intake).
                            Beneficiaries received therapy, primarily maintenance care, on
                            approximately 32 percent of service days
                            Beneficiaries received physical and/or occupational therapy on
                            approximately one-third of all service days. Physical and occupational
                            therapy each were documented on 29 percent of service days;
                            beneficiaries received both physical and occupational therapy services
                            on 25 percent of service days. 34 Typically, beneficiaries received therapy
                            in addition to one or more nursing service(s).
                            Maintenance care was the most frequently documented type of physical
                            and occupational therapy service. Maintenance care was documented in
                            88 percent of the physical therapy services and 79 percent of the


                               34 Beneficiaries received physical therapy with no occupational therapy on approximately

                            4 percent of service days and, similarly, occupational therapy with no physical therapy on
                            approximately 4 percent of service days. Because of rounding, the percentage of service
                            days with only physical therapy, only occupational therapy, and both physical and
                            occupational therapy does not total 32 percent.



    OEI-09-07-00500         MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G               16
F   I   N   D I       N G    S


                            occupational therapy services. Maintenance care generally refers to
                            treatments and activities, often repetitive, that are planned by a
                            licensed therapist to maintain a beneficiary’s level of function when no
                            additional improvement is expected. 35 Commonly documented physical
                            therapy maintenance services included general conditioning exercises,
                            strengthening exercises, ambulation, and endurance exercises.
                            Commonly documented occupational therapy maintenance services
                            included general conditioning, Thera-Band® 36 exercises/activities,
                            cognitive skills development, and seated active range-of-motion
                            exercises. Both physical and occupational therapy maintenance services
                            were provided primarily in a group setting.
                            A smaller proportion of the documented physical and occupational
                            therapy services were for rehabilitative or restorative care.
                            Documented rehabilitative or restorative care, such as balance
                            exercises, physical therapy evaluations or reevaluations, and gait
                            training, represented 10 percent of the physical therapy services.
                            Seventeen percent of the occupational therapy services were for
                            rehabilitative or restorative care, such as ADL training, occupational
                            therapy reevaluations, endurance training, and breathing exercises.
                            On 40 percent of service days, beneficiaries received no documented health
                            services, including 34 percent of days on which meals and/or snacks were
                            the only documented services
                            On 40 percent of adult day health service days, beneficiaries received no
                            documented health services. On approximately 1 in 3 service days
                            (34 percent), meals and/or snacks were the only services documented in
                            beneficiaries’ records. The 12 States included in our review do not all
                            require that beneficiaries receive a health service each day of
                            attendance at an adult day health facility. Furthermore, there is no
                            standard CMS definition or guidance regarding what constitutes a
                            health service. Therefore, findings about the health and nonhealth
                            services that beneficiaries received could vary if the service types were
                            categorized differently. In addition, with the exception of meals and/or


                               35 CMS describes a maintenance therapy program as one intended to maintain functional

                            status and prevent decline in function in its Medicare Benefit Policy Manual, ch. 15,
                            § 220.2, Reasonable and Necessary Outpatient Rehabilitation Therapy Services. State
                            Medicaid definitions of maintenance therapy may vary. Accessed at
                            http://www.cms.gov/manuals/downloads/bp102c15.pdf on December 14, 2010.
                             36 Thera-Band® brand products are used for resistance exercises intended to restore

                            muscle and joint function, improve balance and coordination, and build strength.



    OEI-09-07-00500         MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G            17
F   I   N   D I       N G     S


                            snacks, the identified nonhealth services could meet the definition of a
                            Medicaid-covered service. As illustrated in Table 2, a meal and/or snack
                            was the only documented service on 86 percent of service days without a
                            health service. On 4 service days (1 percent), beneficiaries received no
                            documented services, although facility records indicated that they were
                            at the adult day health center.


                            Table 2: Service Types Documented on Days With No Documented
                            Health Services
                                                                                                              Percentage of Service
                              Service Type
                                                                                                                      Days (n=191)

                              Meals and/or snacks only                                                                        86%


                              Recreational/social activities only                                                               6%


                              No documented services                                                                            3%


                              Meals and/or snacks and recreational/social activities                                            1%


                              Meals and/or snacks and assistance with ADLs 37                                                   1%


                              Recreational/social activities and assistance with ADLs                                           1%


                              Social work services only                                                                         1%


                              Meals and/or snacks and undetermined services 38                                                  1%


                              Other, nonspecific services                                                                       1%


                                  Total*                                                                                     100%

                            Source: OIG analysis of adult day health medical review results, 2010.
                            *Total does not equal 100 percent because of rounding.




                              37 Excludes services related to ADLs that medical reviewers categorized as nursing or

                            therapy services.
                              38 The record did not contain enough information for the medical reviewer to classify this

                            service.



    OEI-09-07-00500         MEDICAID SERVICES PROVIDED       IN AN   A D U LT D AY H E A LT H S E T T I N G                       18
 F   I   N   D I       N G    S




Approximately 43 percent of therapy services were                       Based on available
provided by staff who lacked required supervision                       documentation, approximately
                                                                        43 percent of physical and
                             occupational therapy services were provided by staff who lacked
                             supervision, where required under State law or regulation, from
                             appropriately qualified staff. These therapy services were provided by
                             staff such as physical and occupational therapist assistants or aides
                             who, under State law or regulation, required the supervision of a
                             licensed physical or occupational therapist. Medical reviewers indicated
                             that the records did not include the required supervisory signature to
                             indicate that appropriately qualified staff performed or supervised the
                             therapy in accordance with State law or requirements. In addition, the
                             facility records contained no documentation that the appropriately
                             qualified staff were at the center on the sampled service day, where
                             required. Of the documented physical therapy services, 54 percent did
                             not have any documentation 39 indicating that the appropriately
                             qualified staff were available to supervise the services. Approximately
                             32 percent of the documented occupational therapy services contained
                             no documentation that appropriately qualified staff were available to
                             supervise the services.
                             Other therapy services were provided directly by qualified staff or staff
                             who were appropriately supervised. Approximately 29 percent of
                             physical therapy services and 33 percent of occupational therapy
                             services were directly provided by appropriately qualified staff. An
                             additional 16 percent of occupational therapy services were performed
                             by staff requiring supervision, and records included documentation that
                             supervision was available.
                             In addition, therapy services on sampled service dates sometimes lacked
                             documentation about who actually provided the service. Staff
                             qualifications were not adequately documented in beneficiaries’ records
                             for approximately 12 percent of physical therapy services and
                             13 percent of occupational therapy services on service days. For an
                             additional 6 percent of physical and occupational therapy services, staff
                             qualifications were illegible. Table 3 outlines the qualifications and
                             supervision of staff providing therapy services.

                                39 Documentation included staff schedules, staff sign-in sheets, and staff signatures or

                             initials in beneficiaries’ records.



     OEI-09-07-00500         MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                   19
F   I   N   D I   N G     S



                                Table 3: Documentation of Qualifications and Supervision of
                                Therapy Staff
                                                                                                               Physical   Occupational
                                  Therapy Documentation
                                                                                                               Therapy        Therapy
                                  Staff provided service requiring supervision; records
                                                                                                                   54%            32%
                                  contain no documentation that supervision was available

                                  Service directly provided by qualified staff                                     29%            33%

                                  Staff provided service requiring supervision; records
                                                                                                                    0%            16%
                                  contain documentation that supervision was available
                                  Staff qualifications not documented/description of
                                                                                                                   12%            13%
                                  qualifications inadequate

                                  Staff qualifications illegible                                                    6%             6%

                                  Service provided by staff performing beyond the scope
                                  of State license (i.e., staff prohibited from providing                           0%             1%
                                  service)

                                     Total*                                                                      100%            100%

                                Source: OIG analysis of adult day health medical review results, 2010.
                                *Totals do not equal 100 percent because of rounding.



                                                                            Records associated with
     Documentation included timely assessments, but in
                                                                            approximately 90 percent
    some cases it lacked appropriate physician orders or
                                                                            of service days included
                      was inconsistent with plans of care                   assessments conducted
                                                                            before services began.
                              These assessments evaluated each beneficiary’s need for adult day
                              health care and provided information about what services would be
                              included in the beneficiary’s plan of care. Documentation for
                              approximately 8 percent of service days contained an assessment that
                              was completed after adult day health treatment started. No assessment
                              was included in records for 1 percent of service days. 40
                              Records for approximately 21 percent of service days did not include a
                              physician order or request signed before the start of treatment.
                              Although adult day health requirements in the 12 States included in
                              our review specify that a physician order or request must be completed
                              before the start of treatment, these orders and requests were



                                40 For the remaining 1 percent of service days, assessments did not appear to be

                              completed by the appropriate staff or for the correct admission date.



        OEI-09-07-00500       MEDICAID SERVICES PROVIDED      IN AN   A D U LT D AY H E A LT H S E T T I N G                       20
F   I   N   D I       N G     S


                            inappropriate or missing for approximately 21 percent of service days.
                            Specifically,
                            • 11 percent were signed late, but within 2 months of the start date;

                            • approximately 6 percent were signed between 2 months and 1 year
                               after services began;
                            • 1 percent were signed more than 1 year after treatment began;

                            • 1 percent included an unsigned order;

                            • approximately 1 percent included undated physician orders; and

                            • 1 percent did not include any physician order or request.

                            Records for approximately 79 percent of service days included a
                            physician order or request signed before treatment began.
                            Approximately 22 percent of documented nursing and therapy services
                            were not included in plans of care
                            Services documented in beneficiaries’ treatment records were not
                            always included in their plans of care. Approximately 22 percent of
                            nursing and therapy services received on service days were not included
                            in beneficiaries’ most recent plans of care (before the service date) and,
                            therefore, may not have been consistent with their treatment goals.
                            Table 4 shows the extent to which different types of services were not
                            included in beneficiaries’ plans of care on service days.

                            Table 4: Documented Services Not Included in Plans of Care

                              Service Type                                                                    Percentage


                              All nursing and therapy services                                                     22%

                              Nursing services                                                                     27%

                              Physical therapy                                                                     14%

                              Occupational therapy                                                                 11%

                            Source: OIG analysis of adult day health medical review results, 2010.




    OEI-09-07-00500         MEDICAID SERVICES PROVIDED       IN AN   A D U LT D AY H E A LT H S E T T I N G                21
   R E C O M M E N D A T I O N S

                  In 2007, Medicaid beneficiaries who attended adult day health
                  programs received a variety of nursing, rehabilitation, therapeutic, and
                  nonhealth services and activities. Meals and/or snacks were the only
                  documented services on 34 percent of service days. In addition,
                  documentation in beneficiary records often included no indication that
                  physical and occupational therapy services were rendered by staff who
                  received supervision required under State law or regulation. In some
                  cases, physician orders or requests were signed after the start of
                  treatment or beneficiaries received services that were not included in
                  their plans of care. Our findings indicate the need for (1) explicit
                  requirements regarding the provision of health services in Medicaid
                  adult day health centers and (2) enforcement of current therapy
                  supervision requirements.
                  Therefore, we recommend that CMS:
                  Specify what services are required for Medicaid reimbursement of adult day
                  health services
                  CMS should clearly delineate what services must be provided in adult
                  day health centers for providers to receive Medicaid reimbursement.
                  State requirements do not always explicitly require that a health
                  service be provided on each service day reimbursed by Medicaid.
                  Additionally, CMS does not have any standard definition or guidance as
                  to what constitutes a health service. Clear delineation as to what
                  services are required for Medicaid reimbursement of adult day health
                  services will ensure that CMS pays for the services necessary to deliver
                  quality care to beneficiaries who attend adult day health programs.
                  Direct States to enforce supervision requirements for staff who provide
                  therapy services in Medicaid adult day health centers
                  CMS should encourage States to ensure that staff who provide therapy
                  services in adult day health centers are operating within the scope of
                  practice under State law and regulation. State physical and
                  occupational therapy licensing requirements specify qualifications and
                  supervision arrangements for therapy services. CMS should work with
                  States to ensure that adult day health centers are aware of, and are in
                  compliance with, these requirements. CMS could require States to
                  conduct program reviews to assess adult day health providers’
                  compliance with supervision requirements.




OEI-09-07-00500   MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   22
R   E C     O    M    M   E    N D     A T     I   O   N       S


                          Take appropriate action to address adult day health centers that did not
                          respond to repeated data requests
                          Thirty-one adult day health centers did not respond to requests for
                          records representing 37 service days. 41 In addition, one center indicated
                          that the beneficiary listed on the Medicaid claim never attended the
                          facility. We forwarded information regarding these centers to CMS
                          under separate cover.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with all of our recommendations in its written
                          comments on our draft report. In response to our first recommendation,
                          CMS stated that it will continue to work with States, either through the
                          State Plan Amendment review process or by providing technical
                          assistance, to educate States on the proper authorities by which services
                          in an adult day health setting may be covered under Medicaid.
                          In response to our second recommendation, CMS stated that it will work
                          with States, through the State Plan Amendment review process, to
                          ensure that each State plan includes assurances that services are
                          provided in accordance with Federal regulations. CMS also stated that
                          the findings of this report will be shared with CMS staff responsible for
                          conducting financial management reviews. These reviews verify that
                          States claimed Federal financial participation only for services provided
                          in accordance with the State plan and Federal regulations.
                          In response to our third recommendation, CMS stated that it will follow
                          up with the appropriate States to discuss whether they have policies
                          and procedures in place that require Medicaid providers to allow State
                          Medicaid agencies access to data and records that can be used to
                          support appropriate reimbursement for services rendered.
                          We made changes, as appropriate, to the report based on CMS’s
                          technical comments. For the full text of CMS’s comments, see
                          Appendix B.




                              41 We requested records from 303 health centers for the 400 sampled service days.




    OEI-09-07-00500       MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G             23
         A P P E N D I X                           ~       A




Table 1: Confidence Intervals

                                                                                             Sample Size            Point           95-Percent
 Estimate Description
                                                                                                                 Estimate   Confidence Interval

 Percentage of service days on which beneficiaries received a documented
                                                                                       300 service days            60.3%          54.7%–65.7%
 health service


 Average number of services documented each service day                                300 service days               9.4              8.2–10.7


 Average number of health services documented each service day with at
                                                                                       181 service days              11.5              9.9–13.0
 least one health service


 Percentage of service days on which nursing services were documented                  300 service days            59.0%          53.3%–64.5%


 Percentage of service days on which a meal was documented                             300 service days            45.3%          39.8%–51.0%


 Percentage of service days on which a snack was documented                            300 service days            35.0%          29.8%–40.6%


 Percentage of service days on which occupational therapy was
                                                                                       300 service days            28.7%          23.8%–34.1%
 documented


 Percentage of service days on which physical therapy was documented                   300 service days            28.7%          23.8%–34.1%


 Percentage of service days on which assistance with activities of daily
                                                                                       300 service days            26.7%          21.9%–32.0%
 living (ADL) were documented

 Percentage of service days on which social work services were
                                                                                       300 service days            19.3%          15.2%–24.2%
 documented

 Percentage of service days on which recreational and/or social activities
                                                                                       300 service days            17.7%          13.7%–22.4%
 were documented


 Percentage of service days on which vital signs checks were documented                300 service days            28.3%          23.5%–33.7%


                                                                                                                             continued on next page




         OEI-09-07-00500          MEDICAID SERVICES PROVIDED    IN AN   A D U LT D AY H E A LT H S E T T I N G                              24
A P P E N D I X                      ~      A




Table 1: Confidence Intervals (Continued)

                                                                                                                     Point           95-Percent
 Estimate description                                                                         Sample Size         Estimate   Confidence Interval

 Percentage of service days on which pain assessments were documented                   300 service days            22.0%          17.7%–27.1%


 Percentage of service days on which blood sugar checks were
                                                                                        300 service days            13.3%           9.9%–17.7%
 documented

 Percentage of service days on which medication administration was
                                                                                        300 service days            11.7%           8.5%–15.8%
 documented

 Percentage of service days on which monitoring of food intake was
                                                                                        300 service days            10.7%           7.6%–14.7%
 documented

 Percentage of service days on which nursing care was documented with
                                                                                        300 service days            49.3%          43.7%–55.0%
 at least one other service

 Percentage of service days on which beneficiaries received physical
                                                                                        300 service days             1.0%            0.3%–3.1%
 and/or occupational therapy services, but no nursing services

 Percentage of service days on which only nursing services were
                                                                                        300 service days             9.7%           6.8%–13.6%
 documented


 Percentage of nursing services that were skilled                                           1,364 services          47.5%          44.6%–50.4%



 Percentage of nursing services that were nonskilled                                        1,364 services          51.8%          48.9%–54.6%



 Percentage of service days on which therapy was documented                             300 service days            32.3%          27.3%–37.9%


 Percentage of service days on which occupational therapy was
                                                                                        300 service days            28.7%          23.8%–34.1%
 documented

                                                                                                                              continued on next page




         OEI-09-07-00500          MEDICAID SERVICES PROVIDED     IN AN   A D U LT D AY H E A LT H S E T T I N G                              25
A      P P      E   N    D I      X         ~      A




Table 1: Confidence Intervals (Continued)
                                                                                                                           Point           95-Percent
    Estimate description                                                                            Sample Size         Estimate   Confidence Interval

    Percentage of service days on which physical therapy was documented                       300 service days            28.7%          23.8%–34.1%


    Percentage of service days on which beneficiaries received both physical
                                                                                              300 service days            25.0%          20.4%–30.2%
    and occupational therapy

    Percentage of documented physical therapy services that were
                                                                                                    360 services          88.1%          80.5%–92.9%
    maintenance services

    Percentage of documented occupational therapy services that were
                                                                                                    341 services          79.2%          69.0%–86.7%
    maintenance services

    Percentage of documented physical therapy services that were
                                                                                                    360 services          10.0%           5.6%–17.3%
    restorative/rehabilitative services

    Percentage of documented occupational therapy services that were
                                                                                                    341 services          17.0%          10.2%–27.0%
    restorative/rehabilitative services

    Percentage of service days on which beneficiaries received no
                                                                                              300 service days            39.7%          34.3%–45.3%
    documented health services

    Percentage of service days on which meals and/or snacks were the only
                                                                                              300 service days            34.0%          28.8%–39.6%
    documented services

    Of service days with no documented health service, percentage on which
                                                                                              119 service days            85.7%          78.2%–90.9%
    only meals and/or snacks were documented

    Of service days with no documented health service, percentage on which
                                                                                              119 service days             5.9%           2.8%–11.9%
    only recreational/social activities were documented

                                                                                                                                    continued on next page




             OEI-09-07-00500              MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                              26
A    P P     E    N   D I      X      ~         A


    Table 1: Confidence Intervals (Continued)

                                                                                                                       Point           95-Percent
     Estimate description                                                                       Sample Size         Estimate   Confidence Interval

     Of service days with no documented health service, percentage on which
                                                                                          119 service days             3.4%            1.3%–8.6%
     no services were documented

     Of service days with no documented health service, percentage on which
     only meals and/or snacks and recreational activities were                            119 service days             0.8%            0.1%–5.8%
     documented

     Of service days with no documented health service, percentage on which
     only meals and/or snacks and assistance with ADLs were                               119 service days             0.8%            0.1%–5.8%
     documented

     Of service days with no documented health service, percentage on which
     only recreational/social activities and assistance with ADLs were                    119 service days             0.8%            0.1%–5.8%
     documented

     Of service days with no documented health service, percentage on which
                                                                                          119 service days             0.8%            0.1%–5.8%
     only social work services were documented

     Of service days with no documented health service, percentage on which
                                                                                          119 service days             0.8%            0.1%–5.8%
     only meals and/or snacks and undetermined services were documented

     Of service days with no documented health service, percentage on which
                                                                                          119 service days             0.8%            0.1%–5.8%
     only “other,” nonspecific, services were documented

     Percentage of service days on which beneficiaries received no
                                                                                          300 service days             1.3%            0.5%–3.5%
     documented services

     Of documented physical therapy services, percentage that were provided
                                                                                                360 services          43.2%          33.9%–53.0%
     by staff who lacked required supervision

     Of documented physical therapy services, percentage that did not include
                                                                                                341 services          53.6%          41.5%–65.3%
     documentation of necessary supervision

     Of documented occupational therapy services, percentage that did not
                                                                                                341 services          32.3%          22.5%–43.8%
     include documentation of necessary supervision

                                                                                                                                continued on next page




             OEI-09-07-00500          MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G                              27
A     P P      E     N   D I       X        ~    A




Table 1: Confidence Intervals (Continued)
                                                                                                                         Point           95-Percent
    Estimate description                                                                          Sample Size         Estimate   Confidence Interval

    Of documented physical therapy services, percentage that were directly
                                                                                                  360 services          28.6%          19.3%–40.2%
    performed by qualified staff

    Of documented occupational therapy services, percentage that were
                                                                                                  341 services          32.6%          23.1%–43.7%
    directly performed by qualified staff

    Of documented occupational therapy services, percentage that were
    performed by staff who required supervision and for which appropriate
                                                                                                  341 services          15.8%          10.0%–24.2%
    documentation of supervision is available in beneficiary and/or facility
    records

    Of physical therapy services, percentage that have missing/inadequate
                                                                                                  360 services          11.9%           5.6%–23.8%
    description of provider qualifications

    Of occupational therapy services, percentage that have
                                                                                                  341 services          12.9%           6.9%–22.9%
    missing/inadequate description of provider qualifications

    Of physical therapy services, percentage that list illegible provider
                                                                                                  360 services           5.8%           1.9%–16.6%
    qualifications

    Of occupational therapy services, percentage that list illegible provider
                                                                                                  341 services           5.6%           2.1%–14.2%
    qualifications

    Of documented occupational therapy services, percentage that were
                                                                                                  341 services           0.9%            0.2%–3.8%
    provided by staff performing beyond the scope of their State licenses


    Of service days, percentage that included timely assessments                            300 service days            89.7%          85.7%–92.7%


    Of service days, percentage that included assessments completed after
                                                                                            300 service days             8.3%           5.7%–12.1%
    treatment began

    Of service days, percentage for which no assessment was included in
                                                                                            300 service days             1.3%            0.5%–3.5%
    records

    Of service days, percentage for which assessment did not appear to be
                                                                                            300 service days             0.7%            0.2%–2.6%
    completed by the appropriate staff or for the correct admission date

                                                                                                                                  continued on next page




              OEI-09-07-00500          MEDICAID SERVICES PROVIDED    IN AN   A D U LT D AY H E A LT H S E T T I N G                              28
   A     P P       E    N    D I      X        ~       A




Table 1: Confidence Intervals (Continued)
                                                                                                                             Point           95-Percent
  Statistic                                                                                           Sample Size         Estimate   Confidence Interval

  Of service days, percentage that did not include a dated or timely
                                                                                                300 service days            21.3%          17.0%–26.4%
  physician order

  Of service days, percentage with a physician order signed after treatment
                                                                                                300 service days            11.0%           7.9%–15.1%
  began, but within 2 months

  Of service days, percentage with a physician order signed after 2 months
                                                                                                300 service days             5.7%            3.5%–8.9%
  but within 1 year

  Of service days, percentage with a physician order signed more than
                                                                                                300 service days             1.0%            0.3%–3.1%
  1 year after treatment began


  Of service days, percentage with an unsigned order                                            300 service days             1.0%            0.3%–3.1%


  Of service days, percentage with no physician order                                           300 service days             1.3%            0.5%–3.5%


  Of service days, percentage with a timely physician order                                     300 service days            78.7%          73.6%–83.0%


  Of nursing and therapy services, percentage that were not included in the
                                                                                                    2,065 services          21.9%          18.2%–26.0%
  most recent plan of care

  Of nursing services, percentage that were not included in the most recent
                                                                                                    1,364 services          26.8%          22.2%–32.1%
  plan of care

  Of physical therapy services, percentage that were not included in
                                                                                                      360 services          13.6%           8.7%–20.6%
  the most recent plan of care

  Of occupational therapy services, percentage that were not included
                                                                                                      341 services          10.8%           5.7%–19.8%
  in the most recent plan of care

Source: Office of Inspector General analysis of adult day health medical review results, 2010.




            OEI-09-07-00500               MEDICAID SERVICES PROVIDED     IN AN   A D U LT D AY H E A LT H S E T T I N G                            29
                      A P PEN D                          x                  B

AGENCY COMMENTS


  ,,.,i,IIVICI:s'.~




 ('     .   ~            DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services

  ,~                                                                                               Administrator
                                                                                                   Wa.hlnglon, DC 20201




                      DATE: 	       MAR 1 62011
                      TO: 	         Daniel R, Levinson
                                    Inspector General

                      FROM: 	       Donald M. Berwick,
                                                             /S/
                                    Administrator

                      SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Medicaid Adult Day Health
                                 Services" (OEI-09-07·00500)


                      The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to comment on
                      this draft report. In this draft report, the OIG: (I) examined the types of services reimbursed by
                      Medicaid in an adult day health setting; (2) detennined whether nursing and therapy services were
                      provided or supervised by qualified staff; and (3) examined whether beneficiary records contained the
                      required documentation,

                      Under Medicaid law, certain Adult Day Health Services (ADHS) fall within the statutory definition
                      of "medical assistance" which is set forth at section I 905 (a) of the Social Security Act (the Act),
                      Based on the statutory authority provided in sections 1915(c) and 1915(i) of the Act, ADHS are
                      generally furnished 4 or more hours per day on a regularly scheduled basis for one or more days per
                      week, in a non-institutional, community-based setting, encompassing both health and social services,
                      Following Federal guidance, States define what services can be included in ADHS and set the
                      provider qualifications under these authorities,

                      With respect to section 1905(a) of Act, ADHS are not included as a specific coverable Medicaid State
                      plan service. However, there are services provided by ADHS that may be covered under the CMS
                      approved State plan, In such situations, Medicaid may pay for those services under the appropriate
                      benefit (e,g., personal care, physical therapy, occupational therapies and nursing services) furnished
                      by the ADHS center, However, Medicaid cannot pay for activities not included in those recognized
                      benefits (e,g, meals and recreation), All State plan services must be provided in accordance with the
                      respective regulations, Qualifications for providers of State plan services must at a minimum meet
                      the qualification set forth in Federal regulations,

                      This OIG study focused on beneficiary and facility records for services delivered in an ADHS setting
                      during the last six months of2007 and reimbursed under the State plan. The review was focused on
                      12 States that, as of December 31,2007, provided a State plan nursing- and therapy-focused adult day
                      health benefit. The OIG draft report finds that (1) beneficiaries received at least one health service on
                      60 percent of service days with nursing services being the services most commonly documented; (2)
                      forty-three percent of documented therapy services were provided by staff who lacked required




            oEI· 09·07·00500               MEDICAID SERVICES PROVIDED IN AN ADULT DAY HEALTH SETTING                                          30
A   P P     E   N     D I    X       ~      B




    OEI-09-07-00500         MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   31
A   P P     E   N     D I    X       ~      B




    OEI-09-07-00500         MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   32
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Timothy Brady,
                  Regional Inspector General for Evaluation and Inspections in the
                  San Francisco regional office, and Michael Henry, Deputy Regional
                  Inspector General.
                  Camille Harper served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  San Francisco regional office who contributed to the report include
                  Loul Alvarez, Veronica Gonzalez, and Abby Lopez; central office staff
                  who contributed include Sandy Khoury, Lyn Killman, and Robert
                  Gibbons.




OEI-09-07-00500   MEDICAID SERVICES PROVIDED   IN AN   A D U LT D AY H E A LT H S E T T I N G   33
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
